APPENDIX
Table of Contents
Appendix A – Ninth Circuit Memorandum Disposition ............................................ 1a
Appendix B – District Court Order Denying Motion to Suppress ........................... 9a
Appendix C – Order Denying Petition for Panel Rehearing .................................. 40a
Appendix D – Constitutional and Statutory Provisions Involved ......................... 41a
Appendix E – Joint Stipulations and Waivers for Bench Trial ............................. 43a

APPENDIX

Case 5:17-cr-00257-LHK Document 64 Filed 04/20/20 Page 1 of 8

FILED

NOT FOR PUBLICATION

APR 20 2020

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No.

U.S. COURT OF APPEALS

18-10498

D.C. No.
5:17-cr-00257-LHK-1

v.
DAVID PAUL MARTINEZ,

MEMORANDUM*

Defendant-Appellant.
Appeal from the United States District Court
for the Northern District of California
Lucy H. Koh, District Judge, Presiding
Argued and Submitted March 3, 2020
San Francisco, California
Before: SILER,** WARDLAW, and M. SMITH, Circuit Judges.
David Martinez appeals the district court’s denial of his motion to suppress
and his conviction at a stipulated facts bench trial for being a domestic violence
misdemeanant in possession of a firearm, in violation of 18 U.S.C. § 922(g)(9).
We have jurisdiction under 28 U.S.C. § 1291. We vacate in part and remand for

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The Honorable Eugene E. Siler, United States Circuit Judge for the
U.S. Court of Appeals for the Sixth Circuit, sitting by designation.
1a

Case 5:17-cr-00257-LHK Document 64 Filed 04/20/20 Page 2 of 8

further proceedings.
1.

In denying Martinez’s motion to suppress evidence found during the

search of his car, the district court erred by relying on pre-Proposition 64 cases that
held that the odor of marijuana alone provides probable cause to search for
violations of state marijuana laws. See, e.g., United States v. Solomon, 528 F.2d
88, 91 (9th Cir. 1975); United States v. Barron, 472 F.2d 1215, 1217 (9th Cir.
1973); United States v. Newman, 563 F. App’x 539, 541 (9th Cir. 2014). These
cases were decided at a time when possession of any quantity of marijuana was
unlawful under state law. But that is no longer true in California after the passage
of Proposition 64, which legalized the possession of 28.5 grams or less of
marijuana, Cal. Health & Safety Code § 11362.1(a). Accordingly, these cases do
not control whether Deputy Creager had probable cause to search for violations of
California law.
We therefore vacate the denial of the motion to suppress and remand for
further consideration of the search of Martinez’s car. On remand, the district court
should first address the factual question of whether Martinez consented to the
search of his car. If the district court must reach the probable cause issue, it should
determine whether the facts known to Deputy Creager supported probable cause to
believe that Martinez’s car contained evidence of a crime for which the Fourth
Amendment permitted Deputy Creager to search. Such crimes might include

2

2a

Case 5:17-cr-00257-LHK Document 64 Filed 04/20/20 Page 3 of 8

violations of California’s remaining laws that restrict the possession and use of
marijuana. See, e.g., Cal. Health & Safety Code § 11362.3(a)(4) (prohibiting the
possession of an open container of marijuana while operating a motor vehicle). As
the district court did not address whether, in light of the fact that Deputy Creager is
a state officer, it would be consistent with the Fourth Amendment to consider
whether there was probable cause to believe the car contained evidence of a
violation of federal marijuana laws, we decline to decide that issue in the first
instance. See Haskell v. Harris, 745 F.3d 1269, 1271 (9th Cir. 2014) (en banc)
(per curiam) (“[W]e are a court of review, not first view . . . .”).
Because the remaining issues on appeal will remain relevant if the district
court again denies the motion to suppress evidence from the car, we decide them
here.
2.

The district court correctly rejected Martinez’s argument that the

evidence found in his apartment should be suppressed because the search warrant
was invalid.1
a.

It was not improper for the warrant affidavit to include Martinez’s

statement that he had previously been housed in “B” pod of the county jail, which

1

Of course, if the district court concludes that the evidence from the car
should be suppressed, the evidence found in the apartment should likewise be
suppressed because the search warrant affidavit relied heavily on the evidence
found in the car.
3

3a

Case 5:17-cr-00257-LHK Document 64 Filed 04/20/20 Page 4 of 8

was relevant because “B” pod was where the jail had housed members of the
Norteño gang. Even assuming that Martinez should have been read Miranda
warnings before he was asked about his previous jail housing, un-Mirandized but
otherwise voluntary statements may be used in a warrant affidavit to establish
probable cause. United States v. Patterson, 812 F.2d 1188, 1193 (9th Cir. 1987).
b.

The district court correctly denied a Franks hearing. See Franks v.

Delaware, 438 U.S. 154 (1978). “To obtain a Franks hearing, a defendant must
make a substantial preliminary showing that: (1) the affiant officer intentionally or
recklessly made false or misleading statements or omissions in support of the
warrant, and (2) the false or misleading statement or omission was material, i.e.,
necessary to finding probable cause.” United States v. Norris, 942 F.3d 902, 909–
10 (9th Cir. 2019) (internal quotation marks omitted), cert. petition docketed, No.
19-8178. Martinez failed to make that showing.
First, contrary to Martinez’s argument, the information in the warrant
affidavit about common Norteño gang symbols did not misleadingly suggest that
Martinez himself had used all of these symbols. In context, it is clear that this
section of the affidavit served only to demonstrate Deputy Creager’s expertise in
matters relating to the Norteño gang.
Nor was it false or misleading for Deputy Creager’s affidavit to say that he
knew from his experience that “‘B’ pod is where Norteno gang members are

4

4a

Case 5:17-cr-00257-LHK Document 64 Filed 04/20/20 Page 5 of 8

housed’” and that he had “confirmed that ‘B’ pod was still a pod where Nortenos
were being housed with jail staff on the day Martinez was booked.” These
statements were factually true and would not mislead a reasonable reader into
thinking that every person housed in “B” pod was a member of the Norteño gang.
Moreover, even assuming the affidavit could be read that way, Martinez failed to
make a substantial preliminary showing that Deputy Creager acted intentionally or
recklessly in his choice of language. Id.
Finally, Martinez argues that the affidavit falsely stated that two of his
tattoos were gang-related. The affidavit described the tattoos as “money
symbols”—that is, the letter “S with lines through it”—and noted that “[t]he letter
‘S’ with lines through it is a sign of disrespect to the Sureno criminal street gang.”
In the district court, Martinez presented a written report from Joshua Mason, an
expert on “urban, prison, and gang culture.” Mason agreed with the affidavit’s
statement that the letter “S” with lines through it is a sign of disrespect to the
Sureño gang. He opined, however, that in Norteño tattoos, “the S is crossed out
with a single line or by writing a K over it . . . or an X, and not a double vertical
line as found on Mr. Martinez’s tattoos,” and that Martinez’s tattoos therefore did
not indicate Norteño membership.
However, even if Mason’s report were credited, the most it shows is that
Deputy Creager mistook one type of crossed-out “S” tattoo for another. A mistake

5

5a

Case 5:17-cr-00257-LHK Document 64 Filed 04/20/20 Page 6 of 8

of this nature, on its own, is not enough to make a substantial showing of
intentional or reckless falsity. Id.
c.

The district court correctly concluded that the affidavit established “at

least a colorable argument for probable cause” and that the officers conducting the
search relied on the warrant “in an objectively reasonable manner.” United States
v. Krupa, 658 F.3d 1174, 1179 (9th Cir. 2011) (standard of review for a warrant
issued by a neutral magistrate). The affidavit stated that a stolen firearm had been
found concealed in Martinez’s car and described various indicia of affiliation with
the Norteño gang, including Martinez’s statement about ‘B’ pod, the
aforementioned tattoos, and various apparel and belongings that were consistent
with Norteño membership. It also said that Deputy Creager knew, based on his
training and experience, that “gang members often possess weapons such as
firearms, knives, bats etc.” These facts, taken together, were enough to create at
least a “colorable argument” for probable cause to believe that Martinez’s
apartment would contain additional firearms or evidence of gang affiliation. See
id.; cf. Messerschmidt v. Millender, 565 U.S. 535, 549 (2012).
3.

The district court did not plainly err by finding Martinez guilty

without direct evidence that Martinez knew he had a prior misdemeanor domestic
violence conviction at the time he possessed the firearm. See Rehaif v. United
States, 139 S. Ct. 2191, 2194 (2019) (holding that another provision of 18 U.S.C.

6

6a

Case 5:17-cr-00257-LHK Document 64 Filed 04/20/20 Page 7 of 8

§ 922(g) requires proof that the defendant had knowledge of the status that
rendered the possession of the firearm unlawful); United States v. Benamor, 937
F.3d 1182, 1188 (9th Cir. 2019) (reviewing a Rehaif claim for plain error when the
defendant did not raise it in the district court).
To prevail on plain error review, Martinez must show “(1) an error (2) that
was obvious and (3) that affected [his] substantial rights and (4) that seriously
affected the fairness, integrity, or public reputation of judicial proceedings.”
Benamor, 937 F.3d at 1188 (citing United States v. Olano, 507 U.S. 725, 734, 736
(1993)). While the decision in Rehaif establishes that the district court made an
obvious error in failing to address whether Martinez knew of his domestic violence
conviction, id., the third and fourth prongs of the plain error test are not satisfied
because Martinez has not shown a “probability that, but for the error, the outcome
of the proceeding would have been different.” Id. at 1189.
Martinez stipulated to the domestic violence conviction, which occurred less
than five years before he was caught with the firearm. “[K]nowledge can be
inferred from circumstantial evidence,” Rehaif, 139 S. Ct. at 2198 (quoting Staples
v. United States, 511 U.S. 600, 615 n.11 (1994)), and the short period of time
between Martinez’s conviction and his possession of the firearm is strong evidence
that he knew of the conviction at the time of possession. Accordingly, Martinez
cannot show that the district court’s failure to find knowledge of his status affected

7

7a

Case 5:17-cr-00257-LHK Document 64 Filed 04/20/20 Page 8 of 8

his “substantial rights or the fairness, integrity, or public reputation of the trial.”
Benamor, 937 F.3d at 1189.
VACATED; REMANDED.

8

8a

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 1 of 31

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

NORTHERN DISTRICT OF CALIFORNIA

10
SAN JOSE DIVISION

United States District Court
Northern District of California

11
12

UNITED STATES OF AMERICA,
Plaintiff,

13

ORDER DENYING DEFENDANT'S
MOTION TO SUPPRESS

v.

14
15

Case No. 17-CR-00257-LHK-1

Re: Dkt. No. 16
DAVID PAUL MARTINEZ,
Defendant.

16
17
18

On May 23, 2018, Defendant David Paul Martinez (“Defendant”) filed a Motion to

19

Suppress Evidence. ECF No. 16 (“Mot.”). The government filed an opposition on June 14, 2018,

20

ECF No. 17 (“Opp.”), and Defendant filed a reply on July 9, 2018. ECF No. 20 (“Reply”). The

21

Court held a hearing on July 18, 2018. Having considered the submissions and oral arguments of

22

the parties, the record in this case, and the relevant law, the Court DENIES Defendant’s motion to

23

suppress.

24

I.

25

BACKGROUND
At approximately 4:15 p.m. on January 23, 2017, while on duty monitoring traffic on

26

Highway 156, San Benito County Deputy Sheriff Matthew Creager saw a white SUV with darkly

27

tinted front side windows in apparent violation of California Vehicle Code § 26708(a)(1). Mot.

28

1
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

9a

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 2 of 31

1

Exh. C at 7–8. Deputy Creager also observed that the SUV had a paper rear license plate in

2

apparent violation of California Vehicle Code § 5200(a). Id. at 8. Based on these traffic

3

violations, Deputy Creager pulled the SUV over. Id. Shortly afterwards, another deputy arrived

4

to serve as Deputy Creager’s backup unit. Id.

5
6

up to the passenger side. Id. As Deputy Creager approached the driver’s door, the driver rolled

7

down his window and identified himself as Defendant. Id. Deputy Creager immediately

8

“smell[ed] a strong odor of marijuana emanating from the passenger compartment of the vehicle.”

9

Id. Deputy Creager also recognized Defendant “from a prior contact.” Id.

10

United States District Court
Northern District of California

Deputy Creager walked up to the driver’s side of the SUV while the backup deputy walked

Deputy Creager then asked Defendant to get out of the car and stand in front of Deputy

11

Creager’s police cruiser. Id. Defendant complied, and the backup deputy pat searched Defendant

12

and did not find any weapons on Defendant’s person. Id. Next, Deputy Creager asked Defendant

13

how much marijuana Defendant had in the car. Mot. Exh. B at 3. Defendant responded:

14

“Honestly, I have like a little sack and a little blunt. I haven’t even been smoking it either.” Id. at

15

4. Deputy Creager mentioned that the inside of Defendant’ car smelled like marijuana, and then

16

asked Defendant if there was “[a]nything illegal in the car.” Id. Defendant replied, “[n]o go

17

[a]head, no,” and gestured towards the car. Mot. Exh. A at 2:47; Mot. Exh. B at 4. Deputy

18

Creager informed Defendant that Deputy Creager would check the car, to which Defendant again

19

responded, “[g]o ahead.” Mot. Exh. B at 4. Defendant then added, “[t]he weed is in the center

20

console,” and made a lifting motion with his hand. Mot. Exh. A at 2:54; Mot. Exh. B at 4.

21

Deputy Creager entered the car through the front passenger door. Mot. Exh. A at 3:04.

22

Deputy Creager saw several items located on the center console, including a wallet, cash, a cell

23

phone, and other personal items. Mot. Exh. C at 9. Deputy Creager also observed “several seeds

24

lying on top of the center console” that “appeared to be marijuana seeds.” Id. Then, Deputy

25

Creager opened the center console and “located a clear, plastic sandwich style bag that contained a

26

green, leafy substance,” as well as a “‘blunt’ lying next to the bag” that contained the same “green,

27

leafy substance.” Id. Deputy Creager recognized the leafy substance inside the bag and blunt to

28

2
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

10a

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 3 of 31

1
2

Deputy Creager continued searching the center console. While doing so, Deputy Creager

3

noticed that an interior panel of the center console appeared to be loose. Id. Deputy Creager

4

noted in his incident report that he has “encountered several vehicles with ‘loose’ consoles . . . in

5

the past and know[s] that many persons involved in the illegal transportation of drugs, narcotics,

6

firearms and money will hide items underneath center consoles.” Id. As such, Deputy Creager

7

lifted the loose panel and “pulled it out [of the console] easily.” Id. Deputy Creager then “looked

8

into the void underneath” where the loose panel had been and saw “a silver and black colored

9

handgun.” Id.

10

United States District Court
Northern District of California

be marijuana. Id. “The marijuana and blunt had a total gross weight . . . of 6.11 grams.” Id.

During this time period, Deputy Creager also examined the rear paper license plate. Mot.

11

Exh. C at 8. Deputy Creager discovered a permanent license plate underneath the paper plate. Id.

12

Then, Deputy Creager “had Netcom run the plate,” and was informed by Netcom “that the vehicle

13

had expired registration since” October 2016, which was about three months before Deputy

14

Creager’s January 23, 2017 search of Defendant’s vehicle. Id. at 9.

15

Shortly after discovering the handgun in Defendant’s center console, Deputy Creager and

16

the backup deputy placed Defendant under arrest and handcuffed Defendant without incident. Id.

17

Deputy Creager completed his search of Defendant’s car about four and a half minutes after

18

Deputy Creager pulled Defendant’s car over, see Mot. Exh. A at 5:40, and Defendant was arrested

19

and handcuffed less than one minute after Deputy Creager concluded his search. See id. at 6:25.

20

The handgun found in the interior of Defendant’s center console was later identified as a Beretta

21

Model 96 .40 caliber handgun. Mot. Exh. C at 9–10. The handgun contained a loaded high

22

capacity magazine. Id. at 9.

23

About one week later, on January 31, 2017, Deputy Creager applied for and obtained a

24

warrant to search Defendant’s residence from a judge on the Superior Court for the County of San

25

Benito. See Mot. Exh. H. Deputy Creager submitted an affidavit in support of the search warrant

26

application. See id. In his affidavit, Deputy Creager recounted the details surrounding his traffic

27

stop and search of Defendant’s vehicle, including the fact that Deputy Creager found a firearm in

28

3
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

11a

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 4 of 31

1

the interior of the center console. See id. at 7–9. Deputy Creager also stated in his affidavit that,

2

upon reviewing Defendant’s criminal history, Deputy Creager “discovered that [Defendant] [had]

3

been convicted of [misdemeanor] domestic violence” in 2012, which made it illegal for Defendant

4

to own or possess any firearms. Id. at 9; see Mot. at 1 (stating that “in 2012,” Defendant “was

5

convicted of a misdemeanor [domestic violence] violation of Cal[ifornia] Penal Code §

6

243(e)(1)”); ECF No. 1 at 1 (same).

United States District Court
Northern District of California

7

Deputy Creager’s search warrant affidavit also contained a “gang heading” section. Mot.

8

Exh. H at 6. Deputy Creager explained in this section that he had “participated in hundreds of

9

gang related arrests and investigations.” Mot. Exh. H at 6. He further explained that, based on his

10

training and experience, he knew that “members of the Norteno criminal street gang often show

11

their allegiance to the gang by displaying the Huelga Bird, the color red, the Roman numeral XIV,

12

the roman numeral IV, the number 4, [and] the number 14,” and that many Nortenos “often wear

13

clothing to include sports attire depicting logos and/or colors that show affiliation to the Norteno

14

criminal street gang.” Id.

15

Thereafter, Deputy Creager highlighted some details about Defendant that, in Deputy

16

Creager’s view, suggested that Defendant might be affiliated with the Norteno street gang. First,

17

Deputy Creager stated Defendant was wearing a “Cincinatti [sic] Reds baseball hat with red letter

18

‘C’ and a red bill” and had “money symbol” tattoos on his left shoulder and right forearm. Id.

19

Deputy Creager explained that the “letter ‘S’ with lines through it is a sign of disrespect to the

20

Sureno criminal street gang.” Id. Second, Deputy Creager noted that Defendant “had a brown

21

wallet depicting the letters ‘SF’ inside of his vehicle.” Id. Deputy Creager explained that

22

“Norteno criminal street gang members often wear clothing, have tattoos[,] or posses items

23

depicting the San Francisco Giants or San Francisco 49ers logos,” and that based on conversations

24

with “multiple gang members,” Deputy Creager knew “that the letters ‘SF’ stand for ‘Scrap

25

Free,’” and that “‘Scrap’ is a derogatory term commonly used by Norteno criminal street gang

26

members to describe members of the rival Sureno criminal street gang.” Id. Third, Deputy

27

Creager noted that Defendant’s “white cell phone had a red protective case,” and that “[t]he color

28

4
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

12a

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 5 of 31

1

red is commonly displayed by” Nortenos. Finally, Deputy Creager stated the following:

2

It should be noted that I was present when jail staff asked [Defendant] where he
houses when he stays at the county jail. [Defendant] advised that he houses in
“B” pod. Based on my training, knowledge and experience, I know that “B” pod
is where Norteno gang members are housed. I also confirmed that “B” pod was
still a pod where Nortenos were being housed with jail staff on the day
[Defendant] was booked.

3
4
5
6

United States District Court
Northern District of California

7

Id.
Later in his search warrant affidavit, Deputy Creager stated that, based on his training and

8

experience, he knew that gang members often possess multiple firearms and weapons, and

9

relatedly, that gang members often use weapons to “attack other gang members or for their

10

protection from” members of rival gangs. Id. at 10. Deputy Creager also stated that it was his

11

belief that “further gang indicia and/or possession of illegal firearm(s) and/or firearms related

12

items will be discovered” at Defendant’s residence. Id. As a result, upon issuance, the search

13

warrant authorized seizure of the following from Defendant’s residence:

14
15
16
17
18

1. Evidence of Gang membership: Any evidence of association or
membership in the “Norteno” criminal street gang, including but not
limited to:
a. Clothing related to association or membership in a criminal street
gang;
b. Music related to criminal street gangs and criminal street gang
activities;

19
20
21
22

c. Photographs and/or videos of associates or members of criminal
street gangs flashing gang signs, wearing gang clothing, and/or
displaying weapons;
d. Writings, letters, and/or newspapers which reference the activities
and/or membership of a criminal street gang;

23
24
25
26
27
28

e. Rosters or telephone lists which show the associates and members of
a criminal street gang;
f. Any of the above items stored in an electronic or digital format in
any storage device, including but not limited to CDs, DVDs, floppy
disks, hard drives, Flash drives, USB devices, cellular telephones,
MP3 players, digital picture viewers, computers, games consoles and
5
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

13a

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 6 of 31

any other electronic storage device;

1
2

g. Weapons including firearms, knives, ammunition, holsters, gun
cases, cleaning kits and firearms related accessories.

3

h. Police scanners.

4

2. Evidence tending to show dominion and control of the area where the
evidence is located.

5
6

Id. at 3–4.
The search warrant was executed on February 10, 2017. Mot. Exh. J at 2. During the

United States District Court
Northern District of California

7
8

search, officers discovered and seized three firearms—a 20 gauge shotgun, a .22 caliber sawed off

9

rifle, and a .223 caliber Bushmaster AR-15 assault rifle—along with a number of firearm-related

10

items (i.e. magazines) and a substantial amount of ammunition. Id. at 3. Various other items were

11

also seized from Defendant’s residence, including several articles of clothing, sizable quantities of

12

narcotics and related paraphernalia, a “slim jim” tool, and two black ski masks. Id. at 2–4.
On May 9, 2017, Defendant was indicted in this criminal action on two counts of

13
14

possessing firearms as a prohibited person in violation of 18 U.S.C. § 922(g)(9). ECF No. 1.

15

II.

16

DISCUSSION
Defendant now moves to suppress all of the evidence obtained during both (1) the January

17

23, 2017 search of his vehicle; and (2) the February 10, 2017 search of his residence. See Mot.

18

Specifically, Defendant argues that “[b]ecause the searches of his vehicle and home violated the

19

Fourth Amendment,” the fruits of those searches must be suppressed. Mot. at 1. The Court first

20

addresses the search of Defendant’s vehicle. Then, the Court addresses the subsequent search of

21

Defendant’s residence.

22
23

A. Search of Defendant’s Car
First, Defendant argues that the evidence that was obtained from Deputy Creager’s search

24

of Defendant’s vehicle—most significantly, the firearm that was found in the interior of the center

25

console—should be suppressed. Defendant does not dispute the lawfulness of the traffic stop that

26

preceded the search. See Mot. at 8–13. Instead, Defendant contends that suppression is warranted

27

because the search of Defendant’s vehicle was unlawful under the Fourth Amendment. See id.

28

6
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

14a

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 7 of 31

United States District Court
Northern District of California

1

The government argues that Deputy Creager’s search of Defendant’s vehicle was valid

2

under the automobile exception to the warrant requirement. Opp. at 6–8. In the alternative, the

3

government contends that the evidence found during the search of Defendant’s vehicle should not

4

be suppressed because “Defendant voluntarily consented to a search of the entire interior of

5

[Defendant’s] vehicle.” Id. at 9–11. For the reasons stated below, the Court agrees with the

6

government that Deputy Creager’s search of Defendant’s vehicle was valid under the automobile

7

exception, and therefore need not address the government’s voluntary consent argument.

8

Fourth Amendment jurisprudence has long viewed vehicles as presenting different safety

9

concerns and privacy expectations than stationary residences. While the United States Supreme

10

Court has recognized that individuals have privacy interests in their vehicles, it has found that

11

those interests are due a lesser degree of protection for two reasons: (1) the exigency that

12

accompanies the “ready mobility” of vehicles, and (2) the reduced expectations of privacy

13

associated with “the pervasive regulation of vehicles capable of traveling on the public highways.”

14

Collins v. Virginia, 138 S. Ct. 1663, 1669–70 (2018) (quoting California v. Carney, 471 U.S. 386,

15

390–91 (1985)).

16

To account for the altered balance of interests in this context, the U.S. Supreme Court long

17

ago established the automobile exception to the warrant requirement. Under that exception, an

18

officer’s search of an automobile can be reasonable without first securing a warrant. Carroll v.

19

United States, 267 U.S. 132, 153 (1925). More specifically, “[i]f a car is readily mobile and

20

probable cause exists to believe it contains contraband, the Fourth Amendment . . . permits police

21

to search the vehicle without more.” Pennsylvania v. Labron, 518 U.S. 938, 940 (1996).

22

However, the scope of the ensuing warrantless search may extend only to “the places in which

23

there is probable cause to believe that [the object of the search] may be found.” United States v.

24

Ross, 456 U.S. 798, 824 (1982); see also California v. Acevedo, 500 U.S. 565, 580 (1991) (“The

25

police may search an automobile and the containers within it where they have probable cause to

26

believe contraband or evidence is contained.”). The government bears the burden of proving that

27

the automobile exception applies. United States v. Scott, 705 F.3d 410, 416 (9th Cir. 2012).

28

7
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

15a

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 8 of 31

United States District Court
Northern District of California

1

In the context of the automobile exception, there is a body of case law that specifically

2

addresses the validity of car searches that are conducted upon detection of the presence—or

3

possible presence—of marijuana. Specifically, “[t]he Ninth Circuit and district courts within this

4

circuit have repeatedly found that the odor of marijuana alone” provides probable cause to search

5

a vehicle “for additional contraband.” United States v. Collins, 2018 WL 306696, at *3 (N.D. Cal.

6

Jan. 5, 2018). For example, in affirming a district court’s denial of a defendant’s motion to

7

suppress, the Ninth Circuit in United States v. Solomon held that by virtue of “smell[ing]

8

marijuana” upon entering the defendant’s car, an officer had “probable cause to search the inside

9

of [the defendant’s] car and, after finding no marijuana there, the trunk.” 528 U.S. 88, 91–92 (9th

10

Cir. 1975); see also United States v. Johnson, 224 F. Supp. 3d 881, 885 (N.D. Cal. 2016) (“Our

11

court of appeals has stated ‘the fact that an agent familiar with the odor of marijuana smelled such

12

an odor emanating from the automobile when he jumped in to stop it alone was sufficient to

13

constitute probable cause for a subsequent search [of the automobile] for marijuana.’” (quoting

14

United States v. Barron, 472 F.2d 1215, 1217 (9th Cir. 1973))). As such, courts have also upheld

15

“searches under the automobile exception based on the odor and sight of even small amounts of

16

marijuana.” Collins, 2018 WL 306696, at *4 (emphasis added).

17

In the instant case, the government argues that Deputy Creager’s search of the passenger

18

compartment of Defendant’s vehicle and the adjoining center console was lawful because Deputy

19

Creager had probable cause “to believe that contraband or evidence of a crime would be found” in

20

those portions of Defendant’s vehicle. Mot. at 6. The government contends that this probable

21

cause existed because (1) while standing next to Defendant’s vehicle, Deputy Creager “smell[ed] a

22

strong odor of marijuana emanating from the passenger compartment of [Defendant’s] vehicle”

23

immediately after Defendant rolled down his driver’s side window, Mot. Exh. H at 7; Opp. at 6;

24

and (2) in response to a question from Deputy Creager, Defendant admitted that he had “a little

25

sack and a little blunt” of marijuana, and subsequently followed up his answer by stating that

26

“[t]he weed is in the center console.” Mot. Exh. B at 4; Opp. at 6; see Mot. Exh. H at 7 (“I

27

mentioned the smell of marijuana inside of the vehicle and [Defendant] told me that he had a small

28

8
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

16a

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 9 of 31

1

bag of marijuana and a ‘blunt’ inside of the vehicle . . . [Defendant] explained that the marijuana

2

was inside of the center console.”). The government further points to other facts in support of

3

probable cause, including: (1) that Deputy Creager observed what “appeared to be marijuana

4

seeds” “on top of the center console,” Mot. Exh. H at 8; (2) that Deputy Creager found marijuana

5

in a “clear, plastic sandwich style bag,” as well as a blunt of marijuana, in the center console, id.;

6

(3) that while searching the center console, Deputy Creager noticed that a panel of the center

7

console was loose, id.; and (4) that Deputy Creager had “encountered several vehicles with ‘loose’

8

consoles . . . throughout [his] career in law enforcement” and that based on those experiences,

9

Deputy Creager knew that “persons involved in the illegal transportation of drugs, narcotics,

United States District Court
Northern District of California

10

firearms and money” have hid contraband inside “loose” center consoles in the past. Id.

11

The Court agrees with the government that, based on the totality of the circumstances,

12

Deputy Creager’s search of Defendant’s vehicle was supported by probable cause. In United

13

States v. Newman, 563 F. App’x 539 (9th Cir. 2014), the Ninth Circuit upheld a very similar

14

search under the automobile exception. Specifically, in Newman, a police officer started searching

15

the defendant’s car during a traffic stop after (1) “first smelling the odor of marijuana” emanating

16

from the vehicle; (2) “observing a canine alert to . . . the center console”; and (3) hearing the

17

defendant “admit[] there was marijuana in the vehicle.” Id. at 542. The officer then “found a

18

green leafy substance consistent with marijuana in the center console.” Id. Thereafter, the officer

19

“ran his hand along the vehicle’s headliner and detected paper positioned between the headliner

20

and the ceiling of the vehicle.” Id. Based on his previous experiences of finding “narcotics and

21

other contraband concealed in headliners,” the officer “became suspicious that illegal contraband

22

was hidden in the headliner” of the defendant’s car, and therefore searched the headliner for

23

contraband. Id. The defendant argued on appeal that the government “failed to meet its burden of

24

justifying the warrantless search of his vehicle.” Id. at 540. In rejecting the defendant’s argument,

25

the Ninth Circuit held that the officer’s search was valid under the automobile exception because,

26

“[b]ased on the information known to [the officer] at the time he searched the vehicle, coupled

27

with his experience and training, there was a fair probability he would find either drugs or

28

9
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

17a

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 10 of 31

United States District Court
Northern District of California

1

evidence relating to drug crimes secreted in the headliner of [the defendant’s] vehicle.” Id. at 541.

2

Like the officer in Newman, Deputy Creager started searching Defendant’s vehicle after

3

(1) smelling a strong odor of marijuana emanating from the passenger compartment; (2) hearing

4

Defendant admit that there was marijuana in the car; and (3) receiving an indication that the

5

marijuana was located in the center console of the car. Further, again like in Newman, Deputy

6

Creager found marijuana in the center console, but continued searching for contraband and

7

eventually noticed that a panel of the center console was loose. Finally, much like how the paper

8

on the headliner appeared suspicious to the officer who conducted the search in Newman, the loose

9

console panel in Defendant’s car raised Deputy Creager’s suspicions because, based on Deputy

10

Creager’s past experiences with “loose” consoles, such consoles are sometimes used as places to

11

hide contraband. As a result, “[b]ased on the information known to [Deputy Creager] at the time

12

he searched [Defendant’s] vehicle, coupled with his experience and training, there was a fair

13

probability he would find either drugs” or other contraband in the vehicle’s passenger

14

compartment and the adjoining center console. Newman, 563 F. App’x at 541. Given that under

15

Ninth Circuit law, “the odor of marijuana alone” provides probable cause to search a vehicle “for

16

additional contraband,” Collins, 2018 WL 306696, at *3, and in light of the fact that Deputy

17

Creager smelled “a strong odor of marijuana emanating from the passenger compartment of

18

[Defendant’s] vehicle,” Mot. Exh. H at 7 (emphasis added), Deputy Creager had probable cause to

19

continue his search for contraband even after finding 6.11 grams of marijuana in the center

20

console, and “was not obligated to accept as true” any implication by Defendant that the marijuana

21

in the center console was the only marijuana in the car. United States v. McCall, 268 F. App’x

22

646, 648 (9th Cir. 2008) (“In any event, the officer was not obligated to accept as true what the

23

driver claimed, that the amount of marijuana in the car was merely a ‘roach.’”).

24

Defendant argues that Deputy Creager’s search of Defendant’ vehicle was unlawful

25

because under recent California legislation, mere possession of less than 28.5 grams of marijuana

26

is no longer unlawful, see Cal. Health & Safety Code § 11362.1(a), and “possession of an open

27

container containing less than 28 grams of marijuana”—like the blunt found in Defendant’s center

28

10
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

18a

United States District Court
Northern District of California

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 11 of 31

1

console—while driving a car is “only an infraction, carrying the potential of a small fine.” Mot. at

2

11 (citing Cal. Veh. Code § 23222(b) and Cal. Health & Safety Code § 11362.1(a)). Thus,

3

Defendant appears to assert that because the blunt found in Defendant’s car could only render

4

Defendant guilty of “a minor infraction,” neither that small amount of marijuana nor the odor of

5

marijuana emanating from the passenger compartment of Defendant’s vehicle provided Deputy

6

Creager with probable cause to continue searching for additional marijuana or other contraband.

7

Id.; see Reply at 4 (“Once Deputy Creager found a lawful amount of the marijuana in the armrest .

8

. . there were no facts indicating a ‘fair probability’ that additional marijuana or contraband would

9

be found anywhere else in [Defendant’s] vehicle.”).

10

Defendant’s argument is not well-taken. In Collins, United States District Judge Susan

11

Illston of the Northern District of California rejected a similar argument and concluded that the

12

officers in Collins “had probable cause to search [the] defendant’s vehicle under the automobile

13

exception once they saw a plastic bag containing” a less-than-criminal amount of marijuana. 2018

14

WL 306696, at *5. In doing so, Judge Illston noted that even California courts have upheld

15

searches “under the automobile exception based on the odor and sight of even small amounts of

16

marijuana, irrespective of state medical marijuana laws permitting the possession of up to eight

17

ounces and irrespective of state law making possession of up to 28.5 grams of non-medical

18

marijuana an infraction only.” Id. at *4 (emphases added) (citing People v. Waxler, 224 Cal.

19

App. 4th 712, 715, 717 (2014), and Strasburg, 148 Cal. App. 4th at 1055–56, 1060). Further, in

20

response to the defendant’s argument that the officers lacked probable cause to search his vehicle

21

because “the marijuana the officers saw was later determined to weigh less than” 28.5 grams,

22

Judge Illston explained that “‘neither the California Supreme Court nor the United States Supreme

23

Court has limited the automobile exception to situations where the defendant possesses a criminal

24

amount of contraband.’” Id. at *5 (internal quotation marks omitted) (quoting Waxler, 224 Cal.

25

App. 4th at 723).

26

Similarly here, the fact that Deputy Creager found a less-than-criminal amount of

27

marijuana in the center console of Defendant’s car did not preclude Deputy Creager from having

28

11
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

19a

United States District Court
Northern District of California

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 12 of 31

1

probable cause under the automobile exception to search the passenger compartment and the

2

adjoining center console for additional, potentially unlawful amounts of marijuana. As the

3

government correctly points out, even though possessing an open container of a small amount of

4

marijuana while driving a vehicle may only be an infraction under California law, “California still

5

criminalizes possession of marijuana in excess of” 28.5 grams, and that offense “is punishable by

6

imprisonment in jail for up to six months.” Opp. at 8 (citing Cal. Health & Safety Code §

7

11357(b)(2)).

8

This is particularly so because Deputy Creager smelled a “strong odor of marijuana

9

emanating from the passenger compartment of [Defendant’s] vehicle,” Mot. Exh. H at 7 (emphasis

10

added), and because “the odor of marijuana alone is sufficient provide probable cause for a vehicle

11

search for marijuana.” Collins, 2018 WL 306696 at *5 (citing Barron, 472 F.2d at 1217). In other

12

words, the strong smell of marijuana emanating from the passenger compartment of Defendant’s

13

car, Defendant’s own admission that there was marijuana in the car, and the presence of a small

14

amount of marijuana in the center console raised a fair probability that there was a “criminal”

15

amount—more than 28.5 grams—of marijuana somewhere in the vicinity of the passenger

16

compartment of Defendant’s car. As a result, Deputy Creager had probable cause to continue his

17

search even after finding a less-than-criminal amount of marijuana in the center console of

18

Defendant’s vehicle.

19

Other courts have also rejected legality-based arguments similar to the one raised here by

20

Defendant. For example, in United States v. Robbins, 2016 WL 6565922 (S.D. Cal. Nov. 3,

21

2016), the defendant argued that there was no probable cause to search the defendant’s vehicle

22

because, although the defendant admitted to having a small amount of marijuana, possession of a

23

small amount of marijuana was “merely an ‘infraction’ and not an arrestable offense” under

24

California law. Id. at *5. In rejecting the defendant’s argument, the Robbins court first noted that

25

the defendant “provide[d] no authority for the proposition that an infraction cannot give rise to

26

probable cause,” and then explained that “‘a person of ordinary caution’” who is “‘armed with the

27

knowledge that there was marijuana in the car . . . would conscientiously entertain a strong

28

12
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

20a

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 13 of 31

1

suspicion that even if defendant makes only personal use of the marijuana found in the passenger

2

area, he might stash additional quantities for future use’” elsewhere in the car. Id. (quoting People

3

v. Strasburg, 148 Cal. App. 4th 1052, 1059 (2007)).

United States District Court
Northern District of California

4

Finally, Defendant relies on this Court’s order granting in part a defendant’s motion to

5

suppress in United States v. Chavez, 2018 WL 3126444 (N.D. Cal. June 26, 2018). Reply at 3–4.

6

However, contrary to Defendant’s view, Chavez is inapposite. In Chavez, even though the only

7

justification supporting a search of the defendant’s car was the fact that an officer “smelled [a]

8

strong odor of marijuana emanating from the passenger compartment,” the officers in Chavez

9

immediately “conducted a full search of [the defendant’s] vehicle,” wherein one officer

10

“conducted [a] search of the trunk and its contents” while two other officers “searched the front

11

passenger compartment of [the defendant’s] vehicle.” 2018 WL 3126444 at *2, *5. The officers

12

found a backpack in the trunk, and subsequently found an assortment of contraband and other

13

incriminating items in the backpack, including “firearms, ammunition, cash, cocaine, marijuana,

14

and [a] digital scale.” Id. at *6. The Court granted the defendant’s motion to suppress the

15

evidence obtained from the backpack in the defendant’s trunk. See id. Specifically, the Court

16

concluded that, while the fact that an officer “detected the smell of marijuana from the passenger

17

compartment . . . certainly established probable cause to believe that contraband was stored in the

18

passenger compartment, the odor [from the passenger compartment] did not raise a fair probability

19

that additional evidence would be uncovered in the trunk, let alone the backpack in the trunk.” Id.

20

at *5. In other words, to reach its conclusion, the Court adhered to the well-established principle

21

that the scope of a warrantless search pursuant to the automobile exception may extend only to

22

“the places in which there is probable cause to believe that [the object of the search] may be

23

found.” Ross, 456 U.S. at 824.

24

In contrast, in the instant case, Deputy Creager did not search and find contraband in

25

Defendant’s trunk. Instead, Deputy Creager searched the passenger compartment and the

26

adjoining center console, and eventually found a firearm inside the interior of the console.

27

Further, as explained above, Deputy Creager had probable cause to search these portions of

28

13
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

21a

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 14 of 31

1

Defendant’s vehicle based on, inter alia, (1) the strong odor of marijuana emanating from the

2

vehicle’s passenger compartment; (2) Defendant’s admission that he had marijuana in the center

3

console; (3) the small amount of marijuana that was found inside the center console; and (4) the

4

loose panel in the center console. Thus, unlike the officers in Chavez, Deputy Creager’s search

5

did not extend beyond “the places in which [Deputy Creager had] probable cause to believe that

6

[marijuana] may be found.” Id. As a result, Deputy Creager’s search was valid under the

7

automobile exception.

8

United States District Court
Northern District of California

9

A. Search of Defendant’s Residence
As discussed above, Defendant’s residence was searched pursuant to a warrant issued by a

10

judge on the Superior Court for the County of San Benito. Defendant advances four arguments for

11

why “all evidence obtained pursuant to th[is] search warrant must be suppressed.” See Mot. at 13–

12

25. Specifically, Defendant argues that (1) “the search warrant resulted from tainted evidence,” id.

13

at 14–15; (2) the search warrant “did not provide probable cause to believe that [Defendant] had

14

committed any crime to which evidence in his house would be relevant,” id. at 15–19; (3) the

15

search warrant violated “the Fourth Amendment’s particularity requirement,” id. at 19–20; and (4)

16

Deputy Creager intentionally or recklessly included false and misleading statements in his search

17

warrant affidavit. Id. at 20–25.

18

The Court is not persuaded by any of Defendant’s arguments. The Court will first address

19

Defendant’s particularity argument. Then, the Court discusses Defendant’s assertion that Deputy

20

Creager intentionally or recklessly included false statements in his search warrant affidavit. Next,

21

the Court addresses Defendant’s contention that “the search warrant was the fruit of tainted

22

evidence.” Id. at 14–15. Finally, the Court discusses Defendant’s probable cause argument.

23

1. Particularity

24

The Fourth Amendment requires search warrants to provide descriptions of the objects to

25

be seized that are “specific enough to enable the person conducting the search reasonably to

26

identify the things authorized to be seized.” United States v. Spilotro, 800 F.2d 959, 963 (9th Cir.

27

1986). This specificity requirement “prevents officers from engaging in general, exploratory

28

14
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

22a

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 15 of 31

1

searches by limiting their discretion and providing specific guidance as to what can and cannot be

2

searched and seized.” United States v. Adjani, 452 F.3d 1140, 1147 (9th Cir. 2006). In evaluating

3

whether a warrant is sufficiently particular, courts may consider one or more of the following

4

factors: (1) “whether probable cause exists to seize all items of a particular type described in the

5

warrant”; (2) “whether the warrant sets out objective standards by which executing officers can

6

differentiate items subject to seizure from those which are not”; and (3) “whether the government

7

was able to describe the items more particularly in light of the information available to it at the

8

time the warrant was issued.” United States v. Spilotro, 800 F.2d 959, 963 (9th Cir. 1986)

9

(citations omitted). As such, “[w]arrants which describe generic categories of items are not

10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21

necessarily invalid if a more precise description of the items subject to seizure is not possible.” Id.
As discussed above, the warrant in the instant case authorized seizure of the following
from Defendant’s residence:
3. Evidence of Gang membership: Any evidence of association or
membership in the “Norteno” criminal street gang, including but not
limited to:
a. Clothing related to association or membership in a criminal street
gang;
b. Music related to criminal street gangs and criminal street gang
activities;
c. Photographs and/or videos of associates or members of criminal
street gangs flashing gang signs, wearing gang clothing, and/or
displaying weapons;
d. Writings, letters, and/or newspapers which reference the activities
and/or membership of a criminal street gang;

22
23
24
25
26

e. Rosters or telephone lists which show the associates and members of
a criminal street gang;
f. Any of the above items stored in an electronic or digital format in
any storage device, including but not limited to CDs, DVDs, floppy
disks, hard drives, Flash drives, USB devices, cellular telephones,
MP3 players, digital picture viewers, computers, games consoles and
any other electronic storage device;

27
28

15
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

23a

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 16 of 31

1

g. Weapons including firearms, knives, ammunition, holsters, gun
cases, cleaning kits and firearms related accessories.

2

h. Police scanners.

3
4
5

Mot. Exh. H at 3–4. Moreover, Deputy Creager’s search warrant affidavit identified numerous

6

symbols, signs, and clothing characteristics that are suggestive of association or membership in the

7

Norteno street gang, including, inter alia, “the Huelga Bird, the color red, the Roman numeral

8

XIV, the roman numeral IV, the number 4, the number 14,” and “sports attire depicting” these

9

symbols and colors. See id. at 6.

10

United States District Court
Northern District of California

4. Evidence tending to show dominion and control of the area where the
evidence is located.

Defendant argues that both the “gang membership” and the “dominion and control”

11

categories in the search warrant were insufficiently particular. Mot. at 20. The Court disagrees.

12

First, as to the gang membership provision, courts have upheld similar gang-indicia provisions

13

against particularity challenges. For example, in United States v. Martinez, 2014 WL 3956677

14

(N.D. Cal. Aug. 12, 2014), the search warrant at issue authorized seizure of:

15
16
17
18
19
20
21
22
23
24
25
26
27
28

Evidence of gang membership to include Norteno gang indicia specifically clothing,
writing, objects, graffiti depicting gang participants names, logos, slogans,
affiliation, activity, identity, drawings, photographs and photograph albums
depicting persons, vehicles or weapons, or location which may appear to be relevant
on the question of gang participation or association, or which may depict items
believed to be evidence in the case being investigated with this warrant.
Id. at *8. In Martinez, United States District Judge William H. Alsup of the Northern District of
California rejected the defendant’s argument that the search warrant was “insufficiently particular
with respect to its search of gang indicia,” finding that the gang-indicia provision was valid
because it “objectively describ[ed] those items in relation to [the defendant’s] gang membership.”
Id. at *7–8; see also United States v. Cerna, 2010 WL 5387694, at *4 (N.D. Cal. Dec. 22, 2010)
(upholding a similar gang-indicia provision that authorized seizure of, inter alia, “clothing
consistent with affiliation of membership in MS-13,” against a particularity challenge).
This Court similarly concludes that the gang membership provision of the search warrant
in the instant case was “sufficiently particular as to the items of gang indicia to be seized.”
16
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

24a

United States District Court
Northern District of California

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 17 of 31

1

Martinez, 2014 WL 3956677 at *8. At first glance, while some of the sub-categories within the

2

gang-indicia provision of the search warrant are rather descriptive (for example, the “writings,

3

letters, and/or newspapers” category), other sub-categories appear to be more vague (like the

4

“clothing” sub-category). However, any apparent lack of particularity in these latter sub-

5

categories was cured by Deputy Creager’s search warrant affidavit, which, as discussed above,

6

identified various symbols and clothing characteristics that are suggestive of an association with

7

the Norteno street gang. Mot. Exh. H at 6; see also United States v. Bergren, 2014 WL 1217981,

8

at *6 (N.D. Cal. Mar. 21, 2014) (“Gang indicia, by its nature, is not amenable to a detailed

9

description.”); Cerna, 2010 WL 3749449, at *14 (“By its nature, gang-related indicia may include

10

a broad swath of ‘everyday’ or ‘ordinary’ items that only become gang-related indicia in certain

11

contexts or once certain modifications or inscriptions are made to the items.”).

12

Second, Defendant’s particularity challenge to the “dominion and control” provision is

13

also without merit. Like with the gang-indicia provision, courts have repeatedly upheld

14

“dominion and control” provisions that are materially identical to the one in the instant search

15

warrant. See, e.g., United States v. Cisneros, 154 F. App’x 591, 592 (9th Cir. 2005) (rejecting a

16

particularity challenge to a provision of a search warrant authorizing seizure of “any evidence of

17

the identity of the persons having dominion and control over the premises searched”); United

18

States v. Khan, 2013 WL 1384994, at *2, *12 (E.D. Cal. Apr. 4, 2013) (rejecting a particularity

19

challenge to a search warrant provision authorizing seizure of “any items tending to establish the

20

identity of those with dominion and control over the premises,” but agreeing with the defendant’s

21

particularity challenges to other provisions of the search warrant); United States v. Zuniga, 2010

22

WL 11579727, at *6 (E.D. Wash. Jan. 15, 2010) (rejecting a particularity challenge to a search

23

warrant provision authorizing seizure of “any and all documents which show dominion and

24

control over the listed residence”).

25

Defendant also briefly argues that the sub-category in the search warrant “related to digital

26

storage devices”—that is, the sub-category comprised of “[a]ny of the above items stored in an

27

electronic or digital format in any storage device”—was “fatally overbroad.” Mot. at 20. In

28

17
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

25a

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 18 of 31

1

support of this argument, Defendant points out that the search warrant in the instant case

2

“provided no guidance whatsoever regarding when or how such [digital storage] devices could be

3

searched,” despite the fact that these “devices would need to be reviewed to determine their

4

contents, and would unquestionably contain a wealth of private, confidential information.” Id.

5

(citing United States v. Comprehensive Drug Testing, Inc., 621 F.3d 1162 (9th Cir. 2010) (en

6

banc), and In re U.S.’s Application for a Search Warrant, 770 F. Supp. 2d 1138, 1144–52 (W.D.

7

Wash. 2011).

8

United States District Court
Northern District of California

9

However, even assuming Defendant is correct that this particular sub-category in the
search warrant was “fatally overbroad,” id., no suppression of any evidence obtained from

10

Defendant’s residence would be warranted. For situations in which only a portion of a search

11

warrant is overbroad or insufficiently specific, the Ninth Circuit has “endorsed a doctrine of

12

severance, which allows a court to strike from a warrant those portions that are invalid and

13

preserve those portions that satisfy the Fourth Amendment.” United States v. SDI Future Health,

14

Inc., 568 F.3d 684, 707 (9th Cir. 2009) (internal quotation marks omitted). Under this doctrine,

15

severance is appropriate unless “the valid portion of the warrant is a relatively insignificant part of

16

an otherwise invalid search.” Id. (internal quotation marks omitted). Thus, even if the digital

17

storage device sub-category of the search warrant in the instant case were invalid, the Court would

18

simply strike that sub-category from the search warrant under the doctrine of severance and

19

suppress the evidence obtained pursuant to that sub-category. Further, it does not appear that any

20

of the items obtained from Defendant’s residence were seized solely pursuant to the digital storage

21

device provision of the search warrant. Indeed, Defendant does not identify any items that might

22

qualify for suppression if the digital storage device provision of the search warrant was ruled

23

invalid. Thus, even if the digital storage device provision were severed from the search warrant,

24

such severance would not require the suppression of any evidence obtained from Defendant’s

25

residence. See United States v. Steitiye, 73 F. App’x 908, 911 (9th Cir. 2003) (affirming the denial

26

of a motion to suppress in part because, although a section of the search warrant at issue was

27

overbroad, that section was severable, and no evidence was seized pursuant to that section).

28

18
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

26a

United States District Court
Northern District of California

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 19 of 31

1

Accordingly, the Court is not persuaded by Defendant’s particularity challenge to the digital

2

storage device portion of the search warrant.

3

2. False or Misleading Statements in the Search Warrant Affidavit

4

Next, Defendant contends that Deputy Creager intentionally or recklessly included several

5

false or misleading statements in the affidavit that Deputy Creager submitted in support of his

6

application for the search warrant in the instant case. Mot. at 25–30. Based on this contention,

7

Defendant requests an evidentiary hearing under Franks v. Delaware, 438 U.S. 154 (1978), and

8

argues that the search warrant would not have been issued by the Superior Court for the County of

9

San Benito absent the allegedly false or misleading statements in Deputy Creager’s search warrant

10

affidavit. For the reasons stated below, the Court finds that Defendant has failed to sufficiently

11

demonstrate that he is entitled to a Franks hearing.

12

“In Franks, the [U.S.] Supreme Court held that a defendant could challenge a facially valid

13

affidavit by making a substantial preliminary showing that (1) the affidavit contains intentionally

14

or recklessly false statements, and (2) the affidavit purged of its falsities would not be sufficient to

15

support a finding of probable cause.” United States v. Stanert, 762 F.2d 775, 780 (9th Cir. 1985)

16

(internal quotation marks omitted). If the defendant makes this substantial preliminary showing,

17

“the Fourth Amendment requires that a hearing be held at the defendant’s request.” Franks, 438

18

U.S. at 156.

19

There is “a presumption of validity” for information in a search warrant affidavit. Id. at

20

171. As a result, the defendant’s allegations of falsity must be “more than conclusory,” and must

21

be “accompanied by an offer of proof” such as “[a]ffidavits or sworn or otherwise reliable

22

statements of witnesses.” Id. “Allegations of negligence or innocent mistake” cannot warrant a

23

Franks hearing. Id. Instead, the defendant must show “deliberate falsehood or . . . reckless

24

disregard for the truth.” Id. As such, the Ninth Circuit has held that a “lack of an affidavit or

25

sworn statement offering proof of deliberate falsehood . . . is enough in itself to defeat [a] demand

26

for an evidentiary hearing” under Franks. United States v. Ruddell, 71 F.3d 331, 334 (9th Cir.

27

1995). In other words, under Ninth Circuit law, a defendant cannot be granted a Franks hearing

28

19
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

27a

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 20 of 31

1

unless he has “submitted [an] affidavit offering proof of deliberate falsehood or reckless disregard

2

for the truth.” United States v. Storm, 2012 WL 3643845, at *13 (D. Ore. Aug. 23, 2012).
Defendant challenges three groups of statements in Deputy Creager’s search warrant

3
4

affidavit as false or misleading. The Court addresses each group in turn.
First, Defendant asserts that “[t]he statements regarding the Huelga bird, roman numerals,

United States District Court
Northern District of California

5
6

and numbers were materially misleading and irrelevant, because [Defendant] did not display those

7

identifiers.” Mot. at 23. Deputy Creager’s affidavit did explain that “members of the Norteno

8

criminal street gang often show their allegiance to the gang by displaying the Huelga Bird . . . the

9

Roman numeral XIV, the roman numeral IV, the number 4, [and] the number 14,” Mot. Exh. H at

10

6, and the government concedes that these characteristics “d[id] not apply to Defendant.” Opp. at

11

16. However, the fact that Defendant lacked these features does not mean that Deputy Creager’s

12

inclusion of a description of these features in his affidavit was misleading. As the government

13

notes, “[t]here is nothing wrong . . . with an expert demonstrating his knowledge of a subject

14

before delving into the specifics of a given case.”1 Opp. at 16. Further, “[i]mmediately after the

15

affidavit’s general description of Norteno characteristics, Deputy Creager provided a clear list of

16

the specific facts applicable to Defendant himself.” Id. Specifically, Deputy Creager noted in his

17

affidavit that Defendant (1) was wearing a “Cincinatti [sic] Reds baseball hat with a red letter ‘C’

18

and a red bill”; (2) had “money symbol” tattoos on his left shoulder and right forearm; (3) “had a

19

brown wallet depicting the letters ‘SF’ inside of his vehicle”; (4) had a “red protective case” for

20

his white cell phone; and (5) “advised that he houses in ‘B’ pod” at the county jail, all of which,

21

according to Deputy Creager, were suggestive of an association with the Norteno criminal street

22

gang. Mot. Exh. H at 6. In light of this “clear list of the specific facts applicable to Defendant

23

himself,” Opp. at 16, Defendant has failed to make a substantial preliminary showing that “[t]he

24
25
26
27
28

1

Further, as the Court explained above in addressing Defendant’s particularity challenges, Deputy
Creager’s description of the Huelga Bird, roman numerals, and numbers in his affidavit might
have been necessary for purposes of ensuring that certain provisions of the search warrant—like
the sub-category authorizing seizure of “[c]lothing related to association or membership in a
criminal street gang,” Mot. Exh. H. at 3—were “specific enough to enable the person conducting
the search reasonably to identify the things authorized to be seized.” Spilotro, 800 F.2d at 963.
20
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

28a

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 21 of 31

1

statements regarding the Huelga bird, roman numerals, and numbers were materially misleading.”

2

Mot. at 23. Further, and in any event, Defendant does not point to anything that suggests that

3

Deputy Creager included these statements with an intent to mislead or a reckless disregard for the

4

truth. See Storm, 2012 WL 3643845 at *13 (stating that a Franks hearing is not warranted unless

5

the defendant has “submitted [an] affidavit offering proof of deliberate falsehood or reckless

6

disregard for the truth”).

7
8
9

Deputy Creager’s search warrant affidavit:

12

It should be noted that I was present when jail staff asked [Defendant] where he
houses when he stays at the county jail. [Defendant] advised that he houses in
“B” pod. Based on my training, knowledge and experience, I know that “B” pod
is where Norteno gang members are housed. I also confirmed that “B” pod was
still a pod where Nortenos were being housed with jail staff on the day
[Defendant] was booked.

13

Mot. Exh. H at 6. Specifically, Defendant argues that Deputy Creager’s statement that “‘B’ pod is

14

where Norteno gang members are housed” in the county jail, “while technically true,” was

15

“intentionally misleading in that it [falsely] implies [that] only Nortenos[] are house[d]” in the “B”

16

pod. Mot. at 23. In support of his argument, Defendant submits an affidavit from Joshua Mason,

17

an “expert in urban, prison & gang culture” and former “street and prison gang member” retained

18

by Defendant. Mot. Exh. K at 2. In his affidavit, Mr. Mason states that:

10
11
United States District Court
Northern District of California

Second, Defendant takes issue with a statement contained in the following portion of

19
20
21
22
23
24
25
26
27
28

Deputy Creager misrepresents the significance of [Defendant’s] desire to be in B
Pod of the county jail. In being housed in B Pod, as long as [Defendant] is not an
enemy of the Northerners he will be allowed by fellow inmates to remain without
being under obligation to join a gang.
Id. ¶ 15.
Contrary to Defendant’s view, the Court finds that Deputy Creager’s statement regarding
Nortenos being housed in “B” pod did not “impl[y] [that] only Nortenos are house[d]” in “B” pod.
Mot. at 23. Rather, at the very most, Deputy Creager’s statement implied that all the Nortenos in
the county jail were housed in “B” pod. Indeed, Deputy Creager’s statement that he “confirmed
that ‘B’ pod was still a pod where Nortenos were being housed” could even be reasonably read to
21
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

29a

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 22 of 31

1

indicate that “B” pod was one of several pods in the county jail where Nortenos were housed.

2

Mot. Exh. H at 6 (emphasis added). Clearly, neither of these implications is equivalent to, or even

3

suggestive of, the notion that “B” pod was exclusively comprised of Nortenos. As a result,

4

Defendant has failed to make any “preliminary showing”—let alone a “substantial preliminary

5

showing”—that Deputy Creager falsely implied in his affidavit that only Nortenos were housed in

6

the “B” pod of the county jail. Stanert, 762 F.2d at 780.

United States District Court
Northern District of California

7

Third and finally, Defendant argues that Deputy Creager “misidentified two common

8

dollar sign tattoos as anti-sureno tattoos, and hence Nortenos gang tattoos.” Mot. at 23.

9

Specifically, Deputy Creager stated in his search warrant affidavit that Defendant had multiple

10

“money symbol” tattoos on his left shoulder and right forearm, and that those tattoos were

11

suggestive of gang affiliation because “[t]he letter ‘S’ with lines through it is a sign of disrespect

12

to the Sureno criminal street gang.” Mot. Exh. H at 6. Defendant asserts that Deputy Creager’s

13

characterization of these “money symbol” tattoos as gang-related “is plainly not true.” Mot. at 23.

14

Again, Defendant refers to Mr. Mason’s affidavit for support. Id. In his affidavit, Mr. Mason

15

concedes that “Deputy [] Creager is correct when he states that . . . [t]he letter S with lines through

16

it is a sign of disrespect to the Sureno criminal street gang.” Mot. Exh. K ¶ 7. However, Mr.

17

Mason then contends that Defendant’s “money symbol” tattoos are clearly distinct from the

18

“‘crossing out’ done by Northerners,” and explains that “[t]he crossing out Deputy Creager is

19

referencing” usually manifests as an S that “is crossed out with a single line or by writing a K over

20

it . . . or an X, and not a double vertical line as found on [Defendant’s] tattoos.” Id. Mr. Mason

21

also notes that “[t]he dollar symbol is also found in [Sureno] artwork.” Id. Additionally, Mr.

22

Mason points out that Defendant “has multiple tattoos with the letter S in them,” and asserts that

23

“[b]y Deputy Creager’s rationale, [Defendant] should have struck out the S in those words as well,

24

yet they are not [struck out].” Id. ¶ 8. Based on these observations, Mr. Mason concludes that

25

“Deputy Creager’s statement . . . that [Defendant’s] ‘money symbol’ tattoos were gang related was

26

clearly erroneous.” Id. ¶ 10.

27
28

The Court is not persuaded by Defendant’s argument. As an initial matter, it is unclear
22
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

30a

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 23 of 31

1

whether Mr. Mason’s affidavit is even sufficient to make a “substantial preliminary showing” that

2

Deputy Creager’s statement about Defendant’s “money symbol” tattoos was actually incorrect.

3

Stanert, 762 F.2d at 780. As the government notes, reasonable people drawing from different

4

experiences and backgrounds “can differ about the significance of” certain clothing or tattoos.

5

Opp. at 16. Although Mr. Mason raises a variety of points to counter Deputy Creager’s tattoo

6

statement, it is unclear whether this is enough to make a substantial preliminary showing that

7

Deputy Creager’s characterization of Defendant’s “money symbol” tattoos was categorically false

8

as an empirical matter.

United States District Court
Northern District of California

9

More importantly, and in any event, the Court finds that Mr. Mason’s affidavit falls well

10

short of making a “substantial preliminary showing” that Deputy Creager’s statement about

11

Defendant’s “money symbol” tattoos amounted to an “intentionally or recklessly false

12

statement[].” Stanert, 762 F.2d at 780 (emphases added). Mr. Mason’s affidavit focuses on

13

providing reasons to believe that Deputy Creager was severely mistaken about Defendant’s

14

“money symbol” tattoos, but offers nothing beyond that to support Defendant’s assertions of

15

“deliberate falsehood or reckless disregard for the truth” on the part of Deputy Creager. Storm,

16

2012 WL 3643845 at *13. In other words, even assuming that Deputy Creager’s statement about

17

Defendant’s “money symbol” tattoos was incorrect, Mr. Mason’s affidavit provides little evidence

18

that the false statement was anything more than a good faith mistake. As a result, Defendant’s

19

argument regarding Deputy Creager’s tattoo statement is unavailing. See Ruddell, 71 F.3d at 334

20

(holding that a “lack of an affidavit or sworn statement offering proof of deliberate falsehood . . .

21

is enough in itself to defeat [a] demand for an evidentiary hearing” under Franks (emphasis

22

added)).

23

In sum, Defendant has failed to make a “substantial preliminary showing” that Deputy

24

Creager’s search warrant affidavit contained any “intentionally or recklessly false statements.”

25

Stanert, 762 F.2d at 780. Accordingly, the Court DENIES Defendant’s request for a Franks

26

hearing.

27
28

3. Tainted Evidence
23
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

31a

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 24 of 31

1
2

suppressed because the search warrant that was issued for Defendant’s residence “was the fruit of

3

tainted evidence.” Mot. at 14. In other words, Defendant’s argument appears to be that all of the

4

evidence seized pursuant to the search warrant should be suppressed because the search warrant

5

would not have been issued but for two particular pieces of allegedly “tainted evidence”: (1) the

6

firearm that was found in the center console of Defendant’s vehicle; and (2) Defendant’s statement

7

about being housed in “B” pod in the county jail. See id. The Court discusses these pieces of

8

evidence in turn.

9

United States District Court
Northern District of California

Defendant also argues that the evidence obtained from Defendant’s residence should be

First, as to the firearm found in Defendant’s center console, Defendant appears to assert

10

that (1) the firearm was “tainted evidence” that should be suppressed; (2) the search warrant

11

“would not have been sought”—and thus would not have issued—“absent the discovery of the

12

firearm”; and therefore (3) all of the evidence obtained pursuant to the search warrant should also

13

be suppressed. Id. Consequently, Defendant’s argument hinges on Defendant’s assertion that the

14

firearm was “tainted” because it was discovered via an unlawful search of Defendant’s vehicle.

15

However, as the Court explained in detail above, the entirety of Deputy Creager’s search of

16

Defendant’s vehicle was valid under the automobile exception, which means that Deputy Creager

17

had ample probable cause to search the portion of the center console in which the firearm was

18

eventually found. As a result, the firearm that was seized from Defendant’s car did not amount to

19

“tainted evidence,” and therefore cannot serve as a basis for suppressing any of the evidence

20

obtained pursuant to the search warrant in the instant case.

21

Second, Defendant argues that Defendant’s statement “during booking that he houses in

22

‘B’ pod” of the county jail “must be purged” from Deputy Creager’s search warrant affidavit.

23

Mot. at 14. As discussed above, Deputy Creager stated in his affidavit that “[i]t should be noted

24

that I was present when jail staff asked [Defendant] where he houses when he stays at the county

25

jail. [Defendant] advised that he houses in ‘B’ pod.” Mot. Exh. H at 6. Defendant argues that,

26

because he was not given Miranda warnings before being asked about where he houses in the

27

county jail, his answer regarding being housed in “B” pod “must be purged” from Deputy

28

24
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

32a

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 25 of 31

1

Creager’s search warrant affidavit. Mot. at 14. By extension, Defendant appears to argue that all

2

of the evidence obtained pursuant to the search warrant should be suppressed because the warrant

3

would not have been issued absent Defendant’s statement about being housed in “B” pod. See id.

United States District Court
Northern District of California

4

The Court is not persuaded by Defendant’s argument. As Defendant admits, Defendant

5

was asked about where he houses in the county jail “during booking.” Mot. at 14. It is well-

6

established that “questions to secure the biographical data necessary to complete booking or

7

pretrial services” are exempt “from Miranda’s coverage” under the “booking questions

8

exception.” Pennsylvania v. Muniz, 496 U.S. 581, 601 (1990). This exception exists because

9

Miranda’s motivating concerns for “procedural safeguards effective to secure the privilege against

10

self-incrimination,” Miranda v. Arizona, 384 U.S. 436, 444 (1966), are often inapplicable in the

11

context of booking questions because such questions “rarely elicit an incriminating response.”

12

United States v. Gonzalez-Sandoval, 894 F.2d 1043, 1046 (9th Cir. 1990). In the instant case,

13

Defendant was asked by jail staff about where he houses in the county jail during booking because

14

such information was useful for “complet[ing] [Defendant’s] booking” in the jail. Muniz, 496

15

U.S. at 601. Thus, under the booking questions exception to Miranda, Defendant was not required

16

to be Mirandized before being asked about where he houses in the county jail.

17

Defendant appears to argue that the booking questions exception is inapplicable to the

18

instant case because the jail staff’s question about where Defendant houses in the county jail was

19

likely to elicit an incriminating response from Defendant. Specifically, Defendant relies on United

20

States v. Williams, 842 F.3d 1143 (9th Cir. 2016). Mot. at 14. Williams involved a defendant who

21

was arrested for murder, “taken to county jail and placed in a holding cell,” and then “removed . . .

22

from the [holding] cell” by a deputy sheriff and directly “asked whether he was a gang member.”

23

Id. at 1145. “In response to the deputy’s inquiry whether he was affiliated with the

24

Fillmore/Central Divisadero Playas (‘CDP’) gang,” the defendant answered in the affirmative. Id.

25

at 1145–46. However, no Miranda warnings were ever issued to the defendant during this

26

exchange. See id. The Ninth Circuit affirmed the suppression of the defendant’s answer under

27

Miranda. See id. at 1450. In doing so, the Ninth Circuit rejected the government’s reliance on the

28

25
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

33a

United States District Court
Northern District of California

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 26 of 31

1

booking questions exception to Miranda. Id. at 1147–49. Specifically, the Ninth Circuit stated

2

that “[q]uestions about [the defendant’s] gang affiliation were . . . reasonably likely to elicit an

3

incriminating response” because “gang membership exposes a defendant to a comprehensive

4

scheme of penal statutes aimed at eradicating criminal activity by street gangs.” Id. at 1147

5

(internal quotation marks omitted). The Ninth Circuit further noted that “[t]he risk that

6

information about gang affiliation will prove incriminating” was especially salient in Williams

7

because the defendant was “charged in California with murder, a crime that the state’s Supreme

8

Court has acknowledged is frequently committed for the benefit of criminal street gangs.” Id. at

9

1148.

10

Defendant’s reliance on Williams is unavailing. Unlike in Williams, Defendant was never

11

directly “asked whether he was a gang member.” Id. at 1145. Instead, Defendant was only asked

12

where he typically houses in the county jail. As even Defendant himself insists, where one houses

13

in the county jail does not necessarily “constitute[] evidence of gang affiliation.” Mot. at 14.

14

Indeed, Defendant’s own gang expert, Mr. Mason, states in his affidavit that people who are not

15

gang-affiliated can still be housed in “B” pod, where Defendant was housed, so long as they are

16

not enemies of the Nortenos. Mot. Exh. K ¶ 15. Thus, although housing location within the

17

county jail may correlate with gang membership, Defendant himself contends and provides

18

evidence demonstrating that one’s jail pod placement is far from dispositive of one’s gang

19

membership or affiliation. As a result, the Court agrees with the government that the question

20

Defendant was asked during booking about where he typically houses in the county jail “d[id] not

21

carry the same risk of incrimination as” the “questions expressly [and directly] seeking admission

22

of gang membership” in Williams. Opp. at 11 n.4. Therefore, the booking questions exception

23

applies to the instant case, and thus Defendant was not required to be Mirandized before being

24

asked about where he houses in the county jail.

25

Accordingly, the Court concludes that Defendant’s argument that “the search warrant was

26

the fruit of tainted evidence” is without merit. Mot. at 14–15. Consequently, no suppression is

27

warranted on the basis of that argument.

28

26
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

34a

United States District Court
Northern District of California

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 27 of 31

1

4. Probable Cause

2

Finally, Defendant argues that all of the evidence seized from Defendant’s residence

3

should be suppressed because the search warrant was unsupported by probable cause. Mot. at 15–

4

19. The government counters that the search warrant in the instant case was supported by

5

probable cause. Opp. at 13–14. In the alternative, the government relies on the good faith

6

exception set forth in United States v. Leon, 468 U.S. 897 (1984). Specifically, the government

7

asserts that at a minimum, even if the search warrant was not supported by probable cause, Deputy

8

Creager’s search warrant affidavit presented “‘a colorable argument for probable cause,’” and thus

9

suppression is not required because the search of Defendant’s residence was conducted in good

10

faith reliance on the search warrant. Opp. at 16–18 (quoting United States v. Krupa, 658 F.3d

11

1174, 1179 (9th Cir. 2011)). For the reasons stated below, the Court agrees with the government

12

that no suppression is warranted because, at the very least, there was enough information in

13

Deputy Creager’s search warrant affidavit to trigger the good faith exception.

14

Under the well-established “exclusionary rule,” “evidence seized during an unlawful

15

search cannot constitute proof against the victim of the search.” United States v. Crews, 502 F.3d

16

1130, 1135 (9th Cir. 2007). However, in Leon, the United States Supreme Court “set out an

17

exception to the exclusionary rule for a search conducted in good faith reliance upon an

18

objectively reasonable search warrant.” Crews, 502 F.3d at 1135–36 (citing Leon, 468 U.S. at

19

925). This good faith exception recognizes that the exclusionary rule is designed “to deter future

20

unlawful police conduct and thereby effectuate the guarantee of the Fourth Amendment against

21

unreasonable searches and seizures.” United States v. Calandra, 414 U.S. 338, 347 (1974). Thus,

22

the good faith exception accounts for the fact that, when an officer acts in an objectively

23

reasonable manner, “[e]xcluding the evidence can in no way affect his future conduct unless it is

24

to make him to do his duty.” Leon, 468 U.S. at 920.

25

“For the good faith exception to apply,” the officers who conducted the search “must have

26

relied on the search warrant in an objectively reasonable manner.” Crews, 502 F.3d at 1136

27

(citing United States v. Clark, 31 F.3d 831, 835 (9th Cir. 1994)). This means that the affidavit

28

27
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

35a

United States District Court
Northern District of California

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 28 of 31

1

supporting the search warrant must have established “at least a colorable argument for probable

2

cause.” United States v. Luong, 470 F.3d 898, 903 (9th Cir. 2006). On the other hand, reliance on

3

a search warrant “is per se unreasonable” where (1) “an affiant misleads the issuing magistrate or

4

judge by making a false statement or recklessly disregarding the truth in making a statement”; (2)

5

“the magistrate or judge wholly abandons her judicial role in approving the warrant, acting only as

6

a ‘rubber stamp’ to the warrant application rather than as a neutral and detached official”; (3) “the

7

warrant is facially deficient in detail as to the place to be searched or the things to be found that

8

the officers could not reasonably presume it to be valid”; or (4) “the affidavit upon which the

9

warrant is based is so lacking in indicia of probable cause that no reasonable officer could rely

10

upon it in good faith.” Crews, 502 F.3d at 1136 (citing Leon, 468 U.S. at 923–26). Thus, the

11

existence of any one of these circumstances automatically renders the good faith exception

12

inapplicable. See id.

13

The Court finds that the good faith exception applies in the instant case because Deputy

14

Creager’s search warrant affidavit contained enough information to establish “at least a colorable

15

argument for probable cause” to search Defendant’s residence. Luong, 470 F.3d at 903. As

16

discussed above, the search warrant in the instant case authorized seizure of firearms from

17

Defendant’s residence. See Mot. Exh. H at 3–4. Because Defendant had been convicted of

18

misdemeanor domestic violence under California Penal Code § 243(e)(1) in 2012, see ECF No. 1

19

at 2, it would have been a crime under both state and federal law for Defendant to own or possess

20

a firearm. See Cal. Penal Code § 29805(a); 18 U.S.C. § 922(g)(9). Deputy Creager’s search

21

warrant affidavit contained information that, when considered in conjunction, indicated that

22

Defendant’s residence might contain firearms that were owned by Defendant. Specifically,

23

Deputy Creager’s affidavit noted that (1) Deputy Creager had found a firearm hidden inside the

24

center console of Defendant’s vehicle under a loose panel; (2) there were numerous details about

25

Defendant that collectively suggested a possible affiliation with the Norteno street gang, including

26

“money symbol” tattoos, a “Cincinatti [sic] Reds baseball hat with a red letter ‘C’ and a red bill,” a

27

“red protective [cell phone] case,” a “wallet depicting the letters ‘SF,’” and the fact that Defendant

28

28
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

36a

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 29 of 31

1

housed in “B” pod in the county jail, which is also “where Norteno gang members are housed” in

2

the jail; and (3) based on Deputy Creager’s “training, knowledge, and experience,” which included

3

“hundreds of gang related arrests and investigations,” Deputy Creater knew that gang members

4

often possess many weapons in order to commit crimes and protect themselves from members of

5

rival gangs. Mot. Exh. H at 6, 8, 10. Taken together, these facts established more than a

6

“colorable argument for probable cause” to believe that firearms would be found at Defendant’s

7

residence. Luong, 470 F.3d at 903.

United States District Court
Northern District of California

8

Further, the search warrant in the instant case also authorized seizure of certain “[e]vidence

9

of [g]ang membership,” including gang-related clothing, music, photographs, and writings, from

10

Defendant’s residence. Mot. Exh. H at 3–4. In turn, Deputy Creager’s search warrant affidavit

11

included facts that indicated that Defendant’s residence might contain indicia of gang membership

12

or affiliation. Specifically, as discussed above, Deputy Creager’s affidavit noted numerous details

13

about Defendant—like Defendant’s “money symbol” tattoos and the fact that he housed in “B”

14

pod in the county jail—that collectively suggested an affiliation with the Norteno street gang. See

15

Mot. Exh. H at 6. These facts were more than sufficient to establish a “colorable argument for

16

probable cause” to believe that Defendant’s residence would contain further evidence of gang

17

membership or affiliation. Luong, 470 F.3d at 903.

18

Consequently, it was not objectively unreasonable to search Defendant’s residence for

19

firearms and evidence of gang membership in reliance upon the search warrant. As a result, the

20

good faith exception to the exclusionary rule precludes suppression in the instant case.

21

In his reply, Defendant insists that the good faith exception cannot be applied to this case.

22

Specifically, Defendant appears to argue that reliance on the search warrant in the instant case was

23

per se unreasonable because (1) Deputy Creager’s search warrant affidavit “was so lacking in

24

indicia of probable cause that law enforcement could not reasonably rely on it”; (2) “the

25

magistrate was misled by intentional or reckless falsity or omission”; and (3) “the warrant was

26

facially deficient in failing to particularize the items to be seized.” Reply at 14–15. However, the

27

Court has already considered and rejected all of these arguments. First, with regards to

28

29
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

37a

United States District Court
Northern District of California

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 30 of 31

1

Defendant’s probable cause argument, as the Court just explained at length, Deputy Creager’s

2

search warrant affidavit established more than a “colorable argument for probable cause” to search

3

Defendant’s residence for firearms and certain evidence of gang membership. Luong, 470 F.3d at

4

903. Second, as to Defendant’s allegations that Deputy Creager included intentionally or

5

recklessly misleading statements in his search warrant affidavit, the Court concluded above that

6

Defendant has failed to make the “substantial preliminary showing” of intentional falsehood or

7

reckless disregard for the truth that is necessary to trigger a Franks hearing. Stanert, 762 F.2d at

8

780. Finally, as to Defendant’s particularity arguments, the Court has already found that (1) all

9

but one of the search warrant’s provisions were plainly sufficiently particular; and (2) even if the

10

remaining provision was invalid, that provision is severable, and its severance would not require

11

the suppression of any of the evidence obtained from Defendant’s residence. See Steitiye, 73 F.

12

App’x at 911 (affirming the denial of a motion to suppress in part because, although a section of

13

the search warrant at issue was overbroad, that section was severable, and no evidence was seized

14

pursuant to that section).

15

Defendant also argues that no objectively reasonable officer would have believed that there

16

was probable cause to search Defendant’s residence for evidence of gang membership because (1)

17

“‘[g]ang membership, standing alone, is not a crime,’” Mot. at 15 (quoting People v. Elizalde, 61

18

Cal. 4th 523, 539 (2015)); and (2) Defendant’s possible gang affiliation was not relevant or in any

19

way related to any crime that Defendant was suspected of committing. See id. at 15–16. The

20

Court is not persuaded. Although Defendant is correct that gang membership is not a crime in and

21

of itself, there are situations in which “evidence regarding [a defendant’s] gang affiliation [c]ould

22

prove helpful in prosecuting” the defendant for a crime. Messerschmidt v. Millender, 565 U.S.

23

535, 551 (2012). For example, evidence of a defendant’s gang membership might “help to

24

establish [a] motive” for committing a crime. Id. Additionally, such evidence, if “found at [a

25

defendant’s] residence,” may help “demonstrat[e] [the defendant’s] connection to other evidence

26

found” at the residence. Id. at 552.

27
28

In the instant case, it appears that the evidence of gang membership obtained from
30
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

38a

United States District Court
Northern District of California

Case 5:17-cr-00257-LHK Document 29 Filed 08/14/18 Page 31 of 31

1

Defendant’s residence could potentially “prove helpful in prosecuting” Defendant for possessing a

2

firearm as a convicted domestic violence misdemeanant—which, as discussed above, is a crime

3

under both California and federal law. Id. at 551; see Cal. Penal Code § 29805(a); 18 U.S.C. §

4

922(g)(9). Specifically, if Defendant were to disclaim ownership and possession of the firearms

5

found in his home, the government could plausibly attempt to rebut that argument by using the

6

evidence of gang membership found in Defendant’s home to (1) “demonstrat[e] [Defendant’s]

7

connection to” the firearms; and (2) suggest a motive for owning multiple firearms (i.e., protection

8

against members of rival gangs), thereby making it seem more probable that the firearms obtained

9

from Defendant’s home actually belonged to Defendant. Messerschmidt, 565 U.S. at 551–52. At

10

the very least, it would not have been objectively unreasonable for the law enforcement officers in

11

the instant case to believe that evidence of Defendant’s possible gang membership could “prove

12

helpful in prosecuting” Defendant in these ways. Id. at 551. As a result, the search for evidence

13

of gang membership at Defendant’s residence was valid under the good faith exception.

14

III.

15
16

CONCLUSION
For the foregoing reasons, the Court DENIES Defendant’s motion to suppress.

IT IS SO ORDERED.

17
18
19
20

Dated: August 14, 2018
______________________________________
LUCY H. KOH
United States District Judge

21
22
23
24
25
26
27
28

31
Case No. 17-CR-00257-LHK-1
ORDER DENYING DEFENDANT’S MOTION TO SUPPRESS

39a

Case: 18-10498, 09/03/2020, ID: 11812054, DktEntry: 69, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
SEP 3 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No.

18-10498

D.C. No.
5:17-cr-00257-LHK-1
Northern District of California,
San Jose

DAVID PAUL MARTINEZ,
ORDER
Defendant-Appellant.
Before: SILER,* WARDLAW, and M. SMITH, Circuit Judges.
The panel has unanimously voted to deny appellant’s petition for panel
rehearing. The petition for panel rehearing is therefore DENIED.

*

The Honorable Eugene E. Siler, United States Circuit Judge for the
U.S. Court of Appeals for the Sixth Circuit, sitting by designation.
Panel

40a

Appendix D
U.S. Const. amend. V:
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a Grand Jury, except
in cases arising in the land or naval forces, or in the Militia, when in
actual service in time of War or public danger; nor shall any person be
subject for the same offence to be twice put in jeopardy of life or limb;
nor shall be compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for public use,
without just compensation.
U.S. Const. amend. VI:
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury of the State and district
wherein the crime shall have been committed, which district shall have
been previously ascertained by law, and to be informed of the nature
and cause of the accusation; to be confronted with the witnesses
against him; to have compulsory process for obtaining witnesses in his
favor, and to have the Assistance of Counsel for his defense.
18 U.S.C. § 922(g)(9) provides that:
(g) It shall be unlawful for any person . . . who has been convicted in
any court of a misdemeanor crime of domestic violence, to ship or
transport in interstate or foreign commerce, or possess in or affecting
commerce, any firearm or ammunition; or to receive any firearm or
ammunition which has been shipped or transported in interstate or
foreign commerce.
18 U.S.C. § 921(a) – Definitions, provides that:
(a) As used in this chapter—
(33)(A) Except as provided in subparagraph (C),[2] the term
“misdemeanor crime of domestic violence” means an offense that—
(i) is a misdemeanor under Federal, State, or Tribal [3] law; and

41a

(ii) has, as an element, the use or attempted use of physical
force, or the threatened use of a deadly weapon, committed by a
current or former spouse, parent, or guardian of the victim, by a
person with whom the victim shares a child in common, by a
person who is cohabiting with or has cohabited with the victim
as a spouse, parent, or guardian, or by a person similarly
situated to a spouse, parent, or guardian of the victim.
(B)
(i) A person shall not be considered to have been convicted of
such an offense for purposes of this chapter, unless—
(I) the person was represented by counsel in the case, or
knowingly and intelligently waived the right to counsel in
the case; and
(II) in the case of a prosecution for an offense described
in this paragraph for which a person was entitled to a jury
trial in the jurisdiction in which the case was tried, either
(aa) the case was tried by a jury, or
(bb) the person knowingly and intelligently waived
the right to have the case tried by a jury, by guilty
plea or otherwise.
(ii) A person shall not be considered to have been convicted of
such an offense for purposes of this chapter if the conviction has
been expunged or set aside, or is an offense for which the person
has been pardoned or has had civil rights restored (if the law of
the applicable jurisdiction provides for the loss of civil rights
under such an offense) unless the pardon, expungement, or
restoration of civil rights expressly provides that the person may
not ship, transport, possess, or receive firearms.
[2] So in original. No subparagraph (C) was enacted in subsec. (a)(33).
[3] So in original. Probably should not be capitalized.

42a

Case 5:17-cr-00257-LHK Document 32 Filed 08/29/18 Page 1 of 4

FILED
AUG 2 9 Z018

1 ALEX G. TSE (CABN 152348)
United States Attorney

2
3
4

BARBARA J. VALLIERE (DCBN 439353)
Chief, Criminal Division
JOHN C. BOSTIC (CABN 264367)
Assistant United States Attorney

5
150 Almaden Boulevard, Suite 900
San Jose, California 95113
Telephone: (408) 535-5061
FAX: (408) 535-5066
john.bostic@usdoj .gov

6
7
8

Attorneys for United States of America
9

UNITED STATES DISTRICT COURT
10
NORTHERN DISTRICT OF CALIFORNIA
11

SAN JOSE DIVISION

12
13

UNITED STATES OF AMERICA,
Plaintiff,

14
15

v.

) CASE NO. 17-CR-00257 LHK
)
) JOINT STIPULATIONS AND WAIVERS FOR
) BENCH TRIAL
)
)
)
)
)

16

DAVIDPAULMARTINEZ,

17

Defendant.
_______________________________
)

18
19

The United States and Defendant David Paul Martinez hereby submit the following waivers and

20

stipulations in anticipation of a bench trial scheduled for August 29, 2019, before this Court:

21

I.

22
23
24

INTRODUCTION
This trial concerns Defendant David Paul Martinez, who is charged with illegal firearm

possession.
On May 9, 2017, a grand jury returned an Indictment charging Defendant with two counts of

25

being a prohibited person in possession of firearms in violation of Title 18, United States Code, Section

26

922(g)(9). (Dkt. No. 1).

27

On May 23,2018, Defendant filed a Motion to Suppress Statements and Evidence, arguing that

28

1
STIPS & WAIVERS FOR BENCH TRIAL
17-CR-257 LHK

43a

Case 5:17-cr-00257-LHK Document 32 Filed 08/29/18 Page 2 of 4

1 the Court should suppress, on Fourth Amendment grounds, the firearms he is charged with possessing as
2 well as statements made to police on the day of his arrest. (Dkt. No. 16). The parties subsequently
3 briefed the motion, and the Court heard oral argument on July 18,2018. (Dkt. Nos. 17, 20, 21, & 23).
4

On August 14, 2018, the Court issued an order denying Defendant's motion to suppress. (Dkt. No. 29).

5

The parties have agreed to proceed via stipulated facts bench trial on all counts in the Indictment,

6 and enter these stipulations with the express understanding that Defendant objects to the Court's ruling
7 on his Motion to Suppress and is not waiving his right to appeal the Court's order on his Motion to
8 Suppress. The parties further agree that, by entering into these stipulations, Defendant is not rendering
9 moot his right to appeal the denial of his Motion to Suppress. See United States v. Larson, 302 F .3d
10

1016, 1020 (9th Cir. 2002) (stating that appeal after a stipulated facts bench trial is not moot if the

11

stipulations merely describe evidence the government intended to introduce at trial).

12 II.

WAIVER OF RIGHTS

13

1.

Pursuant to Federal Rule of Criminal Procedure 23, Defendant David Paul Martinez

14 waives his right to a jury trial, and the government consents to have the Court conduct the trial in this
15

case.
2.

16

Defendant waives his right to testify and to call any witnesses on his own behalf, and he

17 submits the matter for decision by the Court based on the factual stipulations below. Defendant has
18

consulted with his lawyer regarding this decision. Defendant has been informed of his right to have a

19 trial by jury and his right to confront witnesses against him. It is Defendant's knowing intention to
20 proceed to trial through this written statement of stipulated facts rather than calling and cross-examining
21

witnesses.
3.

22

The government agrees not to call witnesses, and to submit the matter for decision based

23

on the factual stipulations below.

24

III.

25

ELENUENTS
The parties stipulate that the elements of the charged offense, being a prohibited person in

26 possession of a firearm in violation of 18 U.S.C. § 922(g)(9), are as follows:
27

1.

The defendant knowingly possessed a firearm;

28
2
STIPS & WAIVERS FOR BENCH TRIAL
17-CR-257 LHK

44a

Case 5:17-cr-00257-LHK Document 32 Filed 08/29/18 Page 3 of 4

2.

1

2

foreign nation and the United States; and
3.

3
4

The firearm had been shipped or transported from one state to another or between a

At the time the defendant possessed the firearm, the defendant had been convicted of a

misdemeanor crime of domestic violence.

5 IV.

FACTUAL STIPULATIONS

6

Defendant David Paul Martinez and the government, by and through counsel, hereby stipulate

7

that, but for these stipulations, the government would have called witnesses and introduced documents

8 to establish at least the following facts beyond a reasonable doubt. The following stipulations are
9

subject to Defendant's objections regarding the admissibility of evidence that was the subject of his

10

Motion to Suppress and that Defendant contends were obtained in violation of his Fourth Amendment

11

rights (including the contents of his vehicle, the search of his residence, and the fruits of that evidence).

12

1.

On January 23,2017, Defendant was driving on Highway 156 in San Benito County

13

when he was pulled over by a Sheriffs Deputy in a marked patrol vehicle for violations of the California

14

Vehicle Code. Defendant was the driver and sole occupant of the vehicle.

15

2.

During the traffic stop, the Deputy conducted a search of the passenger compartment of

16

Defendant's vehicle. Upon lifting a tray in the center console between the two front seats ofthe vehicle,

17

the Deputy discovered a loaded firearm, specifically, a Beretta, model 96, .40 caliber pistol bearing

18

serial number BER1 04256.

19

3.

Approximately one week later, on January 31, 2017, a judge for the Superior Court for

20

the County of San Benito issued a warrant authorizing the search of Defendant's residence in Hollister,

21

California.

22

4.

On February 10,2017, police executed the search warrant at Defendant's residence.

23

During the search of the residence, police discovered several firearms, specifically, one Bushmaster,

24

model AR-15, .223 caliber rifle bearing serial number L517356; one Winchester, model37A, 20 gauge

25

shotgun bearing serial number C774354; and one Winchester, model290, .22 caliber rifle bearing an

26

obliterated serial number.

27

5.

The government's evidence at trial would establish that Defendant knowingly possessed

28
3
STIPS & WAIVERS FOR BENCH TRIAL
17-CR-257 LHK

45a

Case 5:17-cr-00257-LHK Document 32 Filed 08/29/18 Page 4 of 4

1 the firearms discovered in his vehicle on January 23,2017, and in his residence on February 10,2017.
2

Each of the firearms identified above had been shipped or transported from one state to

6.

3

another or between a foreign nation and the United States prior to their discovery in Defendant's vehicle

4

or residence.

5

7.

On or about May 22, 2012, Defendant was convicted of a misdemeanor crime of

6

domestic violence, specifically, for battery of the cohabiting mother of Defendant's child in violation of

7

California Penal Code Section 243(e)(l). Accordingly, at the time of the events described above, it was

8

not lawful under Title 18, United States Code, Section 922(g)(9) for Defendant to possess any firearms.

9

10 IT IS SO STIPULATED.
11
12

DATED:

fl/a.~h~
r

ALEX G. TSE

1

13

14
15
f

16
17

d~

DATED:""".p<:----tf--1--4-.____

DAVID PAUL MART
Defendant

18

IL/~

19
20
l!

\}//n,~;;~

DATED:~

VARELL L. FULLER
Attorney for the Defendant

22
23
24
25

26
27
28
4
STIPS & WAIVERS FOR BENCH TRIAL
17-CR-257LHK

46a

